<html>
<title> - SAVING OUR SENIORS: PREVENTING ELDER ABUSE, NEGLECT, AND EXPLOITATION</title>
<body><pre>[Senate Hearing 107-105]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-105

                  SAVING OUR SENIORS: PREVENTING ELDER
                    ABUSE, NEGLECT, AND EXPLOITATION

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             JUNE 14, 2001

                               __________

                            Serial No. 107-8

         Printed for the use of the Special Committee on Aging


                   U.S. GOVERNMENT PRINTING OFFICE
74-685                     WASHINGTON : 2001

----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       SPECIAL COMMITTEE ON AGING

                  JOHN B. BREAUX, Louisiana, Chairman
HARRY REID, Nevada                   LARRY CRAIG, Idaho
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
JAMES M. JEFFORDS, Vermont           RICHARD SHELBY, Alabama
RUSSELL D. FEINGOLD, Wisconsin       RICK SANTORUM, Pennsylvania
RON WYDEN, Oregon                    SUSAN COLLINS, Maine
BLANCHE L. LINCOLN, Arkansas         MIKE ENZI, Wyoming
EVAN BAYH, Indiana                   TIM HUTCHINSON, Arkansas
THOMAS R. CARPER, Delaware           PETER G. FITZGERALD, Illinois
DEBBIE STABENOW, Michigan            JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              CHUCK HAGEL, Nebraska
                    Michelle Easton, Staff Director
               Lupe Wissel, Ranking Member Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator John Breaux.........................     1
Statement of Senator Larry Craig.................................     3
Statement of Senator Debbie Stabenow.............................    26
Statement of Senator Herb Kohl...................................    29

                                Panel I

Stuart E. Schiffer, Acting Assistant Attorney General, U.S. 
  Department of Justice, Washington, DC..........................     4

                                Panel II

Sara C. Aravanis, Director, National Center on Elder Abuse, 
  National Association of State Units on Aging, Washington, DC...    31
Joanne Hopper, Fruitland, ID.....................................    44
Dr. Laura Mosqueda, Director of Geriatrics, University of 
  California, Irvine, CA.........................................    49
Paul R. Greenwood, Deputy District Attorney and Head, Elder Abuse 
  Prosecution Unit, San Diego, CA................................    58
Ricker Hamilton, Protective Program Administrator, Department of 
  Health and Human Services, Bureau of Elder and Adult Services, 
  Portland, ME; on behalf of the National Association of Adult 
  Protective Services Administrators.............................    65

                                APPENDIX

Statement by the National Indian Council on Aging................    87
Testimony by the Social Services Block Grant Coalition...........    90
Statement from the American Bar Association......................    98
Recommended Guidelines for State Counts handling cases involving 
  elder abuse....................................................   101

                                 (iii)

  

 
 SAVING OUR SENIORS: PREVENTING ELDER ABUSE, NEGLECT, AND EXPLOITATION

                              ----------                              


                        THURSDAY, JUNE 14, 2001

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. John B. 
Breaux (chairman of the committee) presiding.
    Present: Senators Breaux, Kohl, Stabenow, Craig, and Burns.

     OPENING STATEMENT OF SENATOR JOHN B. BREAUX, CHAIRMAN

    The Chairman. The Committee on Aging will please come to 
order.
    As my first act in this position with the gavel, I want to 
thank Senator Craig for his great leadership. There has never 
been a committee that has worked in such a bipartisan fashion, 
because there are no Democratic or Republican positions on 
Aging; it is the committee. We have had that type of 
relationship and will continue that type of relationship in the 
future so that we can go about the business of paying attention 
to the subject matter with which this committee is charged, and 
that is the condition of our Nation's senior citizens.
    Today's hearing is entitled, ``Saving our Seniors: 
Preventing Elder Abuse, Neglect, and Exploitation.'' I think it 
clearly reflects the charge of this committee to improve the 
quality of life of all of our older Americans.
    We all recognize that the quality of life is not just how 
long we live, but also how well we live in our later years, and 
we truly understand, I think, that the quality of life depends 
on, among other things, access to affordable transportation and 
housing and nutrition and appropriate health care services. But 
we also know that improving the quality of life of our seniors 
also means that we cannot allow conditions to exist that 
compromise the health and safety of our Nation's seniors, and 
to make sure we do everything we can to eliminate the potential 
for abuse of our Nation's seniors.
    During a recent hearing, this committee heard testimony 
indicating that an astounding 95 percent of all long-term care 
in this country is not provided by institutions or professional 
caregivers but by family members in the home. That is good 
news, and it is also bad news in the sense of the burden that 
it puts on families who are charged with caring for their 
senior family members.
    Many times, these families do not have adequate training, 
do not have adequate financial wherewithal, do not have the 
means to handle the extra burdens that are put on their 
families as they attempt to care for their loved ones.
    In many cases, family caregivers are so overwhelmed by the 
extra duties that they themselves have difficulties and 
problems, and sometimes their problems affect the seniors that 
they are charged with taking care of. Often, these problems go 
unnoticed and unreported, and therefore unsolved.
    Victims of abuse, neglect, and exploitation are often 
unable to speak for themselves. Therefore, it is important that 
those of us in Government who have access to the means to make 
sure that these problems do not go undetected are aware of the 
seriousness of these problems.
    I want to also point out that this hearing reflects the 
good work of Senator Craig in putting it together in his former 
capacity as chair of the committee. The entire hearing today 
was structured by him and his staff, and we credit them and 
recognize them for that accomplishment and continue to look 
forward to the good working relationship that we have.
    I recognize Senator Craig now for any comments that he 
might have.
    [The prepared statement of Senator Breaux follows:]

               Prepared Statement of Senator John Breaux

    As my first official act as Chairman of the Senate Special 
Committee on Aging, I would like to thank Senator Craig for his 
leadership of the committee during the past several months and 
to express my sincere appreciation for the bipartisan way in 
which he has guided the committee's work. The issues that 
affect our older citizens are truly issues on which we find 
common ground and I am certain that we will continue to go 
forward in the same spirit of bipartisanship that has become 
synonymous with the Special Committee on Aging.
    I would also like to thank Senator Craig and his staff for 
their initiative in putting this hearing on our agenda and for 
their hard work in preparing for the hearing. While I have the 
good fortune today to be presiding as Chairman, much of the 
credit for bringing this important issue to the attention of 
the Senate and the nation should go to Senator Craig.
    Today's hearing, ``Saving our Seniors: Preventing Elder 
Abuse, Neglect and Exploitation,'' clearly reflects this 
committee's goal of improving the quality of life of older 
Americans. We recognize that quality of life is just as 
important--if not more so--as length of life and we truly 
understand that one's quality of life depends, among other 
things, on access to affordable transportation and housing, 
adequate nutrition and appropriate health care services. But we 
also know that improving the quality of life of our seniors 
includes eliminating those conditions that may compromise their 
safety or endanger their lives. That issue is the focus of our 
hearing today.
    During a recent hearing this committee heard testimony 
indicating that an astounding 95 percent of all long term care 
is provided informally by family members or community-based 
caregivers--a fact that is both good news and bad news. On a 
positive note, most of our seniors are cared for in their homes 
and community-based settings. With that care however, we shift 
most of the physical, emotional and financial burdens to 
families who may not have adequate resources to provide that 
care or to strangers who may not have substantial interest in 
providing quality assistance. In some cases, family caregivers 
become overwhelmed by these circumstances and neglect or 
unintended abuse may occur. Other cases may involve individuals 
who purposely target seniors for acts of intentional abuse or 
exploitation. Far too often, these problems go unnoticed and 
unreported. The victims of abuse, neglect or exploitation are 
often unable to speak on their own behalf or may have no 
alternative sources of care. The purpose of today's hearing is 
to bring awareness and credibility to this problem and to give 
the members of this committee an opportunity to hear victims of 
elder abuse and their advocates speak about the causes of these 
problems and possible means for alleviating this abuse.

              STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. Mr. Chairman, thank you very much.
    I want the record to show that I appreciate the flexibility 
and the cooperative effort with which John and I have worked on 
the whole effort of keeping this very important committee on 
track.
    John is right--this hearing was well underway when the 
transition occurred, and thanks to him and his staff, they 
picked it up and worked with us to continue it and to shape it, 
because we think it is so important that this aspect of the 
whole universe of senior care and senior life be recognized.
    I want to thank our witnesses for being here this morning, 
and a very special thanks to Joanne Hopper of Fruitland, ID. If 
you understand Idaho, you would say, ``Oh, that is just down 
the road from Payette,'' and Payette is my home town. So we do 
appreciate Joanne being here, and I want to thank her for her 
courage and her willingness to come to Washington to share her 
story with us.
    Today we will shed light on an insidious aspect of elder 
abuse that remains largely hidden below the surface of public 
awareness--the abuses that tragically occur in non-
institutional settings, including the elder's own home.
    The physical and emotional consequences of elder abuse can 
be devastating. There is ample evidence indicating that abuse 
shortens lives and can even end the life of a vulnerable 
victim. Because we are serious in our commitment to promote 
secure independent living for our seniors, we must address this 
difficult issue. No one should live in fear of being abused or 
mistreated--no one--not a child, and not a senior.
    It is important to emphasize that these cases are not just 
isolated incidents. National statistics indicate that 470,000 
cases of elder abuse were reported to authorities nationwide in 
the year 2000. Over 2,100 of those cases were reported in my 
home State of Idaho the same year. Perhaps more disturbing is 
the fact that these statistics represent maybe one in five 
cases reported to State and local officials.
    These challenges facing us in fighting elderly abuse are 
formidable. Our investigations have revealed that State efforts 
to address these situations are often ineffective. The 
perpetrators are seldom prosecuted and front-line responders 
often lack the training needed to adequately address the 
problem. Various Government agencies all too often fail to work 
in a collaborative and focused manner.
    Today we seek to determine how existing State and Federal 
efforts might be enhanced to promote a more collaborative and 
multidisciplinary approach for resolving some of these complex 
cases.
    Existing Federal resources can and should be targeted 
toward providing more technical training and assistance in the 
collaborative identification, investigation, and prosecution of 
crimes perpetrated against the elderly.
    The DOJ recently awarded the State of Idaho a Stop Violence 
Against Women Grant. I would like to see a similar opportunity 
for States to apply for grants specifically related to elder 
abuse prevention.
    John, thank you again for convening the hearing. This issue 
has been ignored for far too long by everyone, and I hope that 
today we can begin to shed light on and maybe begin to help 
shape existing resources at the Federal, State and local levels 
to step forward in the stopping of this form of abuse.
    Thank you.
    The Chairman. Thank you, Senator Craig.
    Are there any other comments from committee members? [No 
response.]
    If not, we would like to welcome our first witness, the 
Acting Assistant Attorney General, since I think almost 
everyone over there is in an acting capacity except the 
Attorney General.
    Mr. Stuart Schiffer will talk about the Justice 
Department's role in elderly abuse and prevention and 
prosecution.
    Mr. Schiffer, thank you for being with us.

STATEMENT  OF  STUART  E. SCHIFFER,  ACTING  ASSISTANT ATTORNEY 
      GENERAL, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Schiffer. Thank you, Mr. Chairman. Good morning, 
Senator Craig, members of the committee.
    I very much appreciate the opportunity to be here today. 
With the chair's permission, I will submit my prepared 
statement for the record and simply make a few general 
observations and then take any questions.
    The Chairman. Without objection.
    Mr. Schiffer. We continue to be grateful for the leadership 
role which this committee has consistently had in dealing with 
issues of elder abuse and victimization. These issues certainly 
are not new; they are, however, being brought into ever sharper 
focus, and they need to be brought into ever sharper focus by 
population changes and other factors.
    As the committee knows, these demographic shifts are 
startling. It is estimated that the number of American citizens 
over age 65 is going to more than double from the present 
number of approximately 34 million to 70 million in 30 years.
    None of the issues that we deal with is new. We all 
confront these issues not simply as public officials, but in 
our own family and personal lives. Elder abuse and elder 
justice issues can take many forms, and not surprisingly, those 
citizens who are most vulnerable to physical and psychological 
abuse are equally vulnerable to financial exploitation and many 
other areas that we have to deal with.
    At present and in the future, the real leadership in 
dealing with these issues will continue to come at the State 
and local levels. At the same time, as I attempted to outline 
in my written statement, we in the Federal Government have a 
variety of tools available to us, such as civil enforcement and 
criminal statutes and financial assistance in the form of 
formula and discretionary grants of the type Senator Craig 
referred to.
    We have found that as we continue to enhance our own 
coordination within the Department and with other Federal 
agencies, principally the Department of Health and Human 
Services but others as well, in applying our resources, we 
equally increase our ability to provide training and guidance 
to State and local governmental entities and to the host of 
private social service and related entities, many of which are 
represented here, such as AARP, for example, whose efforts are 
vital. There are myriad numbers of private sector agencies that 
work in this area, and we really owe it to them to enhance 
their own training and to coordinate their efforts with those 
that governments can provide.
    Again, my written statement mentions a number of the 
training programs and symposia which we have either hosted or 
participated in. Those of my colleagues and I who have worked 
most of our time in the litigation arena I think tend to focus 
more on problems than we do on successes, and I do think it is 
important even as we deal with these often horrible problems, 
that we recognize that there are large numbers of dedicated 
providers of services and caregivers while at the same time, we 
continue our efforts to deal with those who abuse our older 
citizens.
    I would be happy at this point to answer any questions.
    [The prepared statement of Mr. Schiffer follows:]

    [GRAPHIC] [TIFF OMITTED] T4685.001
    
    [GRAPHIC] [TIFF OMITTED] T4685.002
    
    [GRAPHIC] [TIFF OMITTED] T4685.003
    
    [GRAPHIC] [TIFF OMITTED] T4685.004
    
    [GRAPHIC] [TIFF OMITTED] T4685.005
    
    [GRAPHIC] [TIFF OMITTED] T4685.006
    
    [GRAPHIC] [TIFF OMITTED] T4685.007
    
    [GRAPHIC] [TIFF OMITTED] T4685.008
    
    [GRAPHIC] [TIFF OMITTED] T4685.009
    
    [GRAPHIC] [TIFF OMITTED] T4685.010
    
    [GRAPHIC] [TIFF OMITTED] T4685.011
    
    [GRAPHIC] [TIFF OMITTED] T4685.012
    
    [GRAPHIC] [TIFF OMITTED] T4685.013
    
    [GRAPHIC] [TIFF OMITTED] T4685.014
    
    [GRAPHIC] [TIFF OMITTED] T4685.015
    
    [GRAPHIC] [TIFF OMITTED] T4685.016
    
    The Chairman. Thank you, Mr. Schiffer, for that summary of 
your testimony.
    Let me just try to get an understanding of how the 
Department of Justice works in these areas of elderly abuse. Is 
there a section over there that specializes in that, or under 
what assistant secretary is this activity pursued?
    Mr. Schiffer. These issues are so broad in their dimension 
that they really cut across areas within the Department. We 
have efforts underway in the Civil Division where I reside, in 
the Civil Rights Division, the Criminal Division, and the 
grant-makers in the Office of Justice Programs.
    What we have tried to do, and I think we are succeeding in 
doing in recent years and certainly are continuing to do, is to 
coordinate those efforts. We have appointed nursing home 
coordinators, for example, who try to bring together the 
resources of the entire Department.
    The Chairman. If you had it spread out in the Civil 
Division, the Criminal Division, and I think you said the 
fraud--or, the Civil Rights Division----
    Mr. Schiffer. That is correct.
    The Chairman. So you have three different divisions, I take 
it, looking at problems with seniors. Has anybody ever thought 
about whether it would make sense to have one, single senior 
coordinator who oversees this instead of having it in three 
different buildings where they probably do not talk to each 
other very much?
    Mr. Schiffer. But we do talk to each other; we talk to each 
other more and more, and I think there have been very healthy 
coordination efforts going on. There is real expertise in these 
areas that sometimes cuts across not just elder abuse but child 
abuse and domestic violence, and I think there is something to 
be said for continuing to have this multidisciplinary focus as 
long as there is coordination taking place.
    The Chairman. So if I didn't know what you just told me, 
and I was a new Member of Congress, and I decided to call the 
Justice Department, and I said, ``I want to talk to the person 
who the chief protector of seniors in this country,'' whom 
would I talk to?
    Mr. Schiffer. If we were dealing with nursing homes, 
certainly we would put you in touch with our nursing home 
coordinator.
    The Chairman. Suppose I want to talk to someone who has 
been the subject of telemarketing fraud; where would I go?
    Mr. Schiffer. You could always call me, Mr. Chairman. I 
would be glad to take your calls.
    The Chairman. I understand that, but what I am trying to 
figure out is if there is not a better way to coordinate this 
kind of activity, and instead of having it in three different 
divisions--and I am not being critical; it has probably been 
like this for decades--I am just saying would it not be an idea 
that should be pursued to have a single coordinator of programs 
to look at and prosecute and coordinate activities dealing with 
senior problems.
    Mr. Schiffer. I am certainly not suggesting, Mr. Chairman, 
that there are not better ways to do it and that we should not 
explore those ways. We will continue to do so, but I think we 
really do need to be able to call on the expertise that exists 
in various components of the Department, and we are doing a 
remarkably better job when you talk about telemarketing 
efforts, for example, within the Criminal and the Civil 
Divisions in bringing those cases.
    The Chairman. Is the major responsibility in this country 
for dealing with senior abuse and fraud a State matter or a 
Federal matter?
    Mr. Schiffer. As I said in my opening remarks, I think the 
State and local government officials will always have the 
leadership role. We do pursue these cases. Our jurisdiction 
tends to follow Federal funds, for example, where Medicare and 
Medicaid funds have been at issue. There is much that we can 
do, but I think we can also do much with respect to training 
and education of State and local officials.
    The Chairman. Tell the committee a little bit about--we 
spend $270 billion a year on Medicare in this country and a 
substantial amount on  Medicaid, and  much of  it covers  
nursing homes, for instance, and institutional care--tell us 
how cases of abuse in nursing homes, for instance, are handled. 
If someone knows about abuse in a nursing home, where is the 
first stop? Is it the U.S. Attorney, or is it the local 
sheriff? Who prosecutes people who are mistreated in 
institutions in this country?
    Mr. Schiffer. People should be free to go either to the 
local U.S. Attorney or to State and local officials hopefully 
to get a response in either of those areas. We bring such cases 
on the civil side, to recover funds, to seek the appointment of 
monitors and other forms of injunctive relief to bring nursing 
homes into compliance, and we bring criminal prosecutions. But 
we are never going to cover the entire waterfront.
    The Chairman. Is there some kind of memorandum of 
understanding between State Attorneys General and the United 
States Department of Justice with regard to how these 
prosecutions are to be handled, or is there sort of a catch-as-
catch-can procedure?
    Mr. Schiffer. Most of those understandings are worked out 
at the local level between a local United States Attorney and 
his State and local officials, because we find that our U.S. 
Attorneys tend to have close relationships with the State and 
local officials.
    The Chairman. So there is no official memorandum of 
understanding as to how that is to be handled that you know 
about?
    Mr. Schiffer. I do not know about something of that order.
    The Chairman. Do you think that would be helpful?
    Mr. Schiffer. It may sound trite to say it; I think 
flexibility is often helpful as well, though. I think that 
local circumstances differ greatly; the resources of our U.S. 
Attorneys differ. And I still prefer to see those matters 
worked out in that fashion, provided they are worked out and 
provided they are effective.
    The Chairman. Is there any area that you are concerned 
about that seems to be slipping through the cracks as far as 
enforcement is concerned?
    Mr. Schiffer. I think I could name almost any area and say 
that we have to be concerned about it. Certainly at this stage, 
we cannot appear here and say that these problems are being 
fully addressed.
    The Chairman. But there is no area that stands out as more 
of a problem or a greater problem than any other?
    Mr. Schiffer. I would have said, obviously, nursing home 
abuses, but I certainly cannot disagree with both your opening 
statement and Senator Craig's when you point as well to 
problems with even family caregivers that are rampant.
    The Chairman. Thank you very much, Mr. Schiffer.
    Senator Craig.
    Senator Craig. Stuart, thank you for being here. I think 
Senator Breaux in his line of questioning has demonstrated that 
while the issue is important, it covers a broad category or 
scattered areas within DOJ and that there is not, if you will, 
a collective, organized, central point at which you deal with 
these issues.
    That is very reflective of our experience in Idaho. I 
mentioned 2,100 cases last year--but that is after a concerted 
effort to educate and train and cause to understand prosecutors 
to have some ability at the county level to even be able to 
cope with it or identify it. And we could not go to the Justice 
Department for that training. I am told that in my State, we 
had to outreach to other States that had developed a level of 
expertise on their own; that there was no one within the 
official legal community who could offer that kind of training 
to prosecutors.
    Therefore, as you know well, if prosecutors cannot be 
secure in what they are doing and have a base of knowledge from 
which to identify whether it is a bruise that is a result of 
falling or a bruise inflicted by a caregiver, or have people 
who can help identify that as we now have developed some 
expertise in the area of child abuse. Then they will walk away 
from those kinds of things. If there is not the ability to 
track a financial transaction that may strip an individual 
elder or senior of his or her property, then, there is tendency 
to step back from that.
    I have a couple of questions for you, Stuart. Does current 
law provide sufficient flexibility for DOJ to target funds 
addressing the problem of elder abuse even in the absence of 
specific line item appropriation?
    Mr. Schiffer. I think it is always difficult to draw lines 
between the desire, frankly, of the Congress on the one hand to 
provide formula grants, and on occasion to earmark funds, and 
the need for flexibility. I think that until we are satisfied 
that we are fully using the tools we have available, I am not 
in a position today to propose, for example, legislation. But 
there is always a need for flexibility as we learn more about 
the area, as we increase our own training efforts. We have ways 
of dealing even with areas like formula grants, where money is 
mandated by statute to be given out according to a certain 
formula. The acting assistant Attorney General for our Office 
of Justice Programs, for example, recently wrote a letter to 
the State formula grant administrators urging them to pay 
careful attention to areas of elder abuse and target funds 
whenever possible in these areas.
    So we do try to maintain maximum flexibility within some of 
the constraints that we have.
    Senator Craig. Is there need for more flexibility, 
specifically designated by Congress in the appropriations 
process?
    Mr. Schiffer. I suspect that those who administer, for 
example, grants would always say they could use more 
flexibility. I am not sure that I am in a position to specify 
right now.
    Senator Craig. What does DOJ do to provide training and 
grant money to entities addressing the problem itself? You had 
mentioned some reference to--is there an effort or has there 
been an effort to present a program within which training can 
be identified and States and their legal systems can utilize 
it?
    Mr. Schiffer. If you had asked me that question 5 years 
ago, I think I would have had to tell you that we are really 
just at a beginning stage. Those efforts are growing. We have 
put on regional symposia, for example, for State and local 
officials, private sector officials. We have trained about 
1,000 officials in some of our programs. We need to do more, 
and we are going to continue to do more.
    Senator Craig. Does DOJ's website make any reference to 
elder abuse and any listing of grants or programs that might be 
utilized for the purpose of addressing this problem?
    Mr. Schiffer. Given my own lack of computer literacy, I 
have difficulty discussing websites, but I am told that our 
website is there and that our website needs to be enhanced, and 
that is something that we are going to concentrate on.
    Senator Craig. So it probably does not.
    Mr. Schiffer. It does make reference; it needs to be 
updated and made more thorough.
    Senator Craig. Could a task force similar to the Bureau of 
Justice Assistance Telemarketing Fraud Task Force be created 
for elder abuse that might assist in both prevention and 
prosecution?
    Mr. Schiffer. We do have task forces in that area. We do 
not have the full equivalent of the task force you mention, 
where I think there are specific funds appropriated for that 
purpose. I know that anybody who appears before you says we 
need more funds. I am constrained in my ability to----
    Senator Craig. What I am asking is--more funds are going to 
be difficult to get; they always are--is there a way to reshape 
what we have and for Congress to give direction to the Justice 
Department to reshape some of what we have and to be able to 
offer those kinds of programs out to the States in this area, 
and is there a way to build with current abuse identification 
education programs an elder component or a senior component 
which would allow a broadening of that training experience by 
local prosecutors and law enforcement?
    Mr. Schiffer. I think ``yes'' is the short answer. We are 
looking for ways to enhance our efforts. I think we are doing a 
much better job, and we need to work specifically with this 
committee and its staff to see that we bring our resources to 
bear in a more efficient manner.
    Senator Craig. Mr. Chairman, Stuart, thank you.
    The Chairman. Thank you.
    Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman. With your 
permission, I will yield to Senator Stabenow, who has to leave 
shortly.
    The Chairman. Certainly.
    Senator Stabenow.
    Senator Stabenow. Thank you, Senator Kohl, and Mr. 
Chairman, thank you for providing this important hearing, and I 
apologize for running in and out this morning. I am trying to 
be in two places at once, as we often try to do.
    I did want to ask, however, to submit for the record 
comments about this area and particularly note that Citizens 
for Better Care in Michigan have been designated as a national 
model for prevention and education. They do a train the trainer 
program, and as Senator Craig was speaking about those issues, 
I would just urge that you look closely at what is being done 
in Michigan, because there  is an  excellent  training  program 
 that is  occurring, and we appreciate very much what is 
happening in Michigan. So I would appreciate being able to 
enter that in the record.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Without objection, it will be made 
part of the record.
    [Statement of Senator Stabenow follows:]

             Prepared Statement of Senator Debbie Stabenow

    I would like to thank the committee for convening this 
hearing on the extremely important topic of elder abuse. This 
is a difficult problem to quantify. For example, it is 
estimated that only 1 in 14 cases of domestic elder abuse ever 
come to the attention of authorities. The State of Michigan 
issued a report last December entitled, ``Elder Adults at 
Risk.'' According to the report, 9,000 adults received services 
from the state as the result of reported elder abuse. However, 
this number only represents a fraction of the abuse that 
experts believe is happening in our state. As our population 
ages and individuals live longer lives and spend more time in 
the care of others, it is sad fact that the incidence of elder 
abuse has the potential to increase substantially.
    Michigan has a wonderful elder abuse prevention and 
education program, run by Citizens for Better Care, which has 
been listed as a national model by the National Ombudsman 
Resource Center. As we know, the Older Americans Act mandates 
that Area Agencies on Aging address elder abuse issues and in 
my state the majority of our agencies have contracted with 
Citizens for Better Care to meet that requirement. As an aside, 
I would like to pitch that increased funding would be very 
beneficial and would only strengthen our program not just in 
Michigan but programs across the nation, as well.
    In Michigan, Citizens for Better Care offers a ``Train the 
Trainer'' program under the skilled leadership of Anne Marie 
Koebel. Nursing homes, adult day care programs, home health 
agencies and other interested groups send one of two members of 
their staff to the training program and then they take what 
they have learned back to their colleagues. This sharing of 
information has proven to be very successful. The program 
defines elder abuse according to State law, examines the 
reasons that it occurs and offers viable solutions for 
preventing abuse. I am so pleased that such a model program 
exists in my state.
    I also think we need to pay increased attention to domestic 
elder abuse. Some elder abuse is the continuation of a long-
standing pattern within a family of domestic violence and I 
think that elder abuse should be a part of any debate on 
domestic violence. Other types of elder abuse often are the 
result of stressed or ill family members who are not equipped 
with counseling our support to care for their loved ones. The 
National Family Caregiver Program, the topic of one our 
previous hearings, is an excellent way to get services to these 
families who need help.
    Another issue that merits attention is variance from state 
to state in their definitions of elder abuse. For example, some 
states include financial exploitation in their definition, 
others do not. It would take careful analysis, but I think it 
would be helpful to examine the usefulness of a national 
minimum definition of elder abuse to help clarify the issue.
    I look forward to the testimony of all the witnesses and I 
am very interested in working with the committee to find 
solutions for this national problem.

    The Chairman. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    I went through a situation with one of my aunts in regard 
to a telemarketing scam. I also had a mother who was in a 
nursing home.
    Mr. Schiffer, your hands are kind of tied unless you get a 
complaint. It is my experience talking to nursing homes and 
talking to elderly who are in nursing homes or in home care or 
even in the care of their own families, that if they have been 
abused, they will not say anything. They are afraid to. And 
that is where we find most of our problems occur, when people 
are either afraid to admit or are afraid that they will be 
further abused if action is not taken.
    We are finding that nursing homes in small towns are 
struggling for the right kind of personnel, the ability to pay 
them for the work that they do, and it creates an environment 
where abuse happens. It even happens within families.
    Can you tell me as a person who follows this dilemma that 
we have with our elderly how much abuse occurs, for example, in 
a care facility and also under the care of the family?
    Mr. Schiffer. First, I think the Senator is certainly 
correct--there is consensus that crimes affecting the elderly 
are underreported and perhaps more so than in many other areas. 
I attempted in my opening remarks to make clear that there are 
many honest and decent providers and caregivers out there. The 
percentage, though, with respect to nursing homes is a matter 
of great concern. We sometimes see reports that in as many as 
half of the individual nursing homes, there are instances of 
abuse and neglect.
    Senator Burns. But what is the percentage--do you also get 
complaints when a person is under the care of a family or 
staying in the family home? Do you get those kinds of 
complaints as well?
    Mr. Schiffer. Those are probably the hardest matters to 
have brought to the attention of law enforcement authorities. I 
think the major effort and the effort of this hearing today is 
to focus people on the need to report these.
    We have similar experiences with domestic abuse. Those were 
always things that were thought to be private, things that 
should not be reported, and I think there is growing awareness 
in this country, frankly, that these are very, very serious 
issues that need to be dealt with.
    Senator Burns. Let us say I am in a skilled care facility, 
and I think I am being abused, and I pick up the telephone and 
call the sheriff. What happens?
    Mr. Schiffer. There should be State regulatory authorities 
dealing with these problems. Something should happen. People 
should look into these promptly, and they should be brought to 
the attention of either law enforcement or State regulators.
    Senator Burns. Does the sheriff turn it over to another 
agency in the State or in the country for prosecution or 
investigation?
    Mr. Schiffer. We find that that differs widely from 
jurisdiction to jurisdiction. Just as our own Federal lines are 
sometimes less than clear, the same is true in State and local 
areas.
    Senator Burns. Well, I think this is an important hearing, 
and why I think it is important is not that I do not think we 
need more laws, but this is an awareness thing that we want 
people to step forward without fear so that if they think they 
are being abused, they can report it, and the abuser can be 
dealt with in a proper fashion.
    If we look at our nursing homes now, even in the medium 
areas, but especially in rural areas where nursing homes tend 
to be smaller and it becomes very difficult to get good help, 
that creates a situation where abuse does take place. But they 
are also reluctant to report for the simple reason that they 
cannot find the people.
    Mr. Schiffer. Well, the Senator is correct. You alluded a 
few moments ago to telemarketing, where it tended to be an 
embarrassment; when an elderly citizen was victimized, even to 
the extent that the citizen realized that he or she had been 
victimized, it was an embarrassment. We see there, for example, 
growing awareness. We see efforts by organizations like AARP. 
We have vastly increased the number of cases that we are 
bringing. Recently, for example, in the last several years, we 
have started bringing cases in Canada, where we see 
telemarketers located in Canada preying on elderly American 
citizens, aware that the Canadian authorities, just as is true 
in this country, have limited resources and are less likely to 
be able to apply those resources where Canadian citizens are 
not involved, and we have brought four or five cases against 
telemarketers there.
    Senator Burns. Let me tell you how I finally got my old 
aunt to admit. We kept finding receipts where she was wiring 
money to somebody in Atlanta, GA. Now, this lady lived in 
northwest Missouri, and every time I could go by to see her, 
there would be more receipts there. I asked her about those 
receipts, and she just would not talk about it. I mean, she 
would just clam up. I also asked her if she knew anything about 
her grandfather, who was my great-grandfather, and she asked, 
``What do you want to know about that for?''--I think he was a 
crook or something, although I am not real sure--he rode with 
Jesse James.
    Senator Craig. A horse thief.
    Senator Burns. Well, yes. He rode with Jesse James. That is 
pretty good.
    Anyway, I will tell you that the FBI in their magazine had 
an article about telemarketing scams. So I took that magazine, 
opened it up to that article, and left it at her house when I 
left one day. And the next time I visited a couple of weeks 
later, she finally said we have a problem.
    I had called the district office in Saint Joseph, MO, and 
we got these guys--we nailed them. So that is what you have got 
to do. But I will tell you that it takes somebody who really 
wants to get in there, and it takes a nephew, or a niece, or a 
son, or whatever, once you set your satchel down, because the 
elderly person is not going to admit it and will not cooperate, 
because they find it embarrassing--and then, some of them are 
so lonely that that is the only phone call they get, and they 
have found a friend, and if it costs 100 bucks, it costs 100 
bucks. But they got this aunt of mine for $125,000--and my 
Lincoln--no. So I am telling you it is something that is a real 
problem.
    So the point is that the family or some interested member 
is going to have to take it under their wing and carry it out, 
because your hands are tied until you get a complaint; those 
complaints are very, very difficult to get, and once they are 
received, they are very difficult to handle with our elderly.
    So I think, John, this is a very, very important hearing, 
but it will be more to elevate awareness of some things that go 
on with our aging population. So I thank you for that.
    The Chairman. Thank you, Senator.
    Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.
    Mr. Schiffer, in 1998, Congress gave home health care 
agencies and nursing homes the ability to use the FBI criminal 
background check system to weed out potential employees with 
criminal histories. In February of this year, the Department of 
Justice issued a report that found that so far, 7 percent of 
those background checks have come back with serious criminal 
convictions, including such things as rape and kidnapping.
    Unfortunately, too few providers are using this tool, in 
part because they do not know about it. What is the Department 
doing about informing providers that there is such a system to 
be used?
    Mr. Schiffer. This is certainly a very serious area. We 
have established, and we have, I think, very productive monthly 
Nursing Home Steering Committee meetings in the Department, 
attended by not only components of the Department, but the 
Department of Health and Human Services. We are reaching out to 
the extent we can to the State regulators, to our own inspector 
general at HHS, and trying to deal with the very, very serious 
staffing problems, both understaffing and the failure to report 
that the Senator mentioned.
    Senator Kohl. Maybe you did not quite understand what I was 
saying. I was saying that there is a tool that can be used, 
which is the FBI background check system. Is there a reason why 
we would not like to see or could not insist or could not be 
sure to let every provider know that there is such a system 
that they can access to determine whether potential employees 
have background problems?
    Mr. Schiffer. There is no reason why we should not be doing 
that, and I will see that we redouble our efforts to do that.
    Senator Kohl. It would seem to me that the first line of 
defense in this problem is to weed out those potential 
employees who obviously should not be employed because they 
have problems in their past, and if the FBI is there to help us 
do it, and if we are really serious, which I know we are, about 
trying to keep these people off the payrolls to begin with, it 
seems to me that the FBI background check is a great place to 
start.
    Mr. Schiffer. The Senator is certainly correct.
    Senator Kohl. Thank you.
    [The prepared statement of Senator Herb Kohl]

                Prepared Statement of Senator Herb Kohl

    Thank you, Mr. Chairman. I appreciate your holding this 
hearing on this very important, but tragic, topic of elder 
abuse.
    There is absolutely no excuse for abuse or neglect of the 
elderly at the hands of those who are supposed to care for 
them. Our parents and grandparents deserve to live out their 
days with dignity and the highest quality care.
    Unfortunately, we know this is not always the case. I know 
that the majority of caregivers are dedicated and do their best 
under difficult circumstances. But too often, the elderly are 
starved, shamed, abused, and exploited. And the systems that 
are in place today are not enough to protect them.
    Later today, I along with Senator Reid, will reintroduce 
the Patient Abuse Prevention Act. This legislation is a first 
step to prevent Elder Abuse by long-term care workers--
including home health agency workers.
    Specifically, my bill would create a National Registry of 
Abusive Long-Term Care Workers, which will prevent abusers from 
moving from state to state continuing to find work with 
vulnerable patients. Second, it requires an FBI criminal 
background check to prevent people with violent criminal 
convictions from working with vulnerable patients.
    There is clear evidence that this is needed. In 1998, at my 
request, this Committee held a hearing on this issue. The HHS 
Inspector General presented a report which found that, in the 
two states they studied, between 5-10 percent of employees 
currently working in nursing homes had serious criminal 
convictions in their past. They also found that among aides who 
had abused patients, 15-20 percent of them had at least one 
conviction in their past.
    But even more compelling, we heard from Richard Meyer of 
Libertyville, IL, whose 92-year old mother was raped by a 
nursing home worker who had a previous conviction for child 
sexual abuse. A criminal background check could have prevented 
this tragedy. But even more appalling, there is nothing in 
current law that prevents her assailant from travelling 50 
miles to my home town of Milwaukee and finding another job in a 
home health agency.
    There's no greater illustration of the need for background 
checks than this. But for those who need hard data, there is 
more evidence. In 1998, I offered an amendment which became law 
that allowed long-term care providers to voluntarily use the 
FBI system for background checks. So far 7 percent of those 
checks have come back with criminal convictions.
    Clearly, this is a critical tool that long-term care 
providers should have--they don't want abusive caregivers 
working for them any more than families do. My legislation 
won't prevent all instances of elder abuse, but it is a common-
sense first step we can take to protect our seniors.
    Again, I thank you, Mr. Chairman, for holding this hearing. 
With the aging of our nation, we cannot afford to ignore the 
issue of Elder Abuse, wherever it occurs. I look forward to 
hearing from our witnesses.

    The Chairman. Thank you very much, Senator Kohl.
    Thank you, Mr. Schiffer. I wish you well in this endeavor. 
It is very, very important, and this committee is going to stay 
in touch with the Justice Department as to how we handle these 
areas, and we want to work with you to improve the quality of 
service.
    Mr. Schiffer. We very much want to do that, Mr. Chairman, 
and we look forward to doing so.
    Thank you.
    The Chairman. Thank you.
    The Chairman. I would like to welcome a panel now that will 
consist of Ms. Sara Aravanis, who is Director of the National 
Center on Elder Abuse located here in Washington; Dr. Laura 
Mosqueda, who is Director of Geriatrics at the University of 
California in Irvine, who will discuss her professional 
experiences in the area of elder abuse; Mr. Paul Greenwood, who 
is Deputy District Attorney and Head of the Elder Abuse 
Prosecution Unit in San Diego and has prosecuted more than 600 
cases of elder abuse; and our final panel member will be Mr. 
Ricker Hamilton, who is Protective Program Administrator for 
the Department of Human Services in the State of Maine and is 
representing the National Association of Adult Protective 
Service Administrators.
    Senator Craig, I understand you have someone from Idaho you 
might want to present.
    Senator Craig. Yes. We are very pleased, as I mentioned in 
my opening comments, Mr. Chairman, to have Joanne Hopper with 
us this morning from Fruitland, ID. She has a very unique and I 
think important story to tell this committee.
    Please come forward, Joanne.
    The Chairman. We welcome all of you, and we have listed 
first Ms. Sara Aravanis.
    Ms. Aravanis, please.

  STATEMENT OF SARA C. ARAVANIS, DIRECTOR, NATIONAL CENTER ON 
  ELDER ABUSE, NATIONAL ASSOCIATION OF STATE UNITS ON AGING, 
                         WASHINGTON, DC

    Ms. Aravanis. Good morning. This hearing is a welcome event 
for the field of aging. Many years ago, Claude Pepper was the 
national spokesperson on elder abuse. We miss his consistent 
and tenacious attention to the problem. We hope that you, Mr. 
Chairman, and the committee will help our Nation address what 
some have called ``the dark side of aging'' in this country.
    I represent the National Center on Elder Abuse, which is 
funded by the Administration on Aging, NASUA. The National 
Association of State Units on Aging is the lead agency. We have 
five partner organizations that bring special capacity and 
skills to our work.
    Our mandate is broad. We provide research, training, and 
technical assistance for all direct service professionals. We 
educate the public, foster research, promote coordination, and 
disseminate good practices. Our accomplishments include an 
award-winning website; a list-serve of 700 members; technical 
assistance manuals; a leadership institute; special support for 
State and local Elder Abuse Coalitions; a Native American 
Project; and training sentinels to find hidden cases.
    Every day, we strive to be the source of information and 
assistance on elder abuse.
    Elder abuse is not a new issue. In the seventies, 
congressional investigations and field researchers uncovered 
the problem and gave it a name--``granny-bashing.'' In the 
eighties, following the child abuse model, mandated reporting 
emerged in State law, and during that decade, the Family 
Violence Network acknowledged elder abuse as part of the 
picture. Also, OBRA called for nursing homes to be abuse-free.
    In the nineties, abuse definitions were included in The 
Older Americans Act. The new Title VII started funding 
education and prevention activities, and a National Nursing 
Home Abuse Prevention Initiative was launched.
    Although there are many other significant events, the 
history of the problem is connected to the aging population 
shift and the lack of a national long-term care policy.
    Through adult protective services, States have the heaviest 
financial and programmatic burden for responding to elder 
abuse, but Older Americans Act programs, elder abuse 
prevention, the ombudsman, and legal assistance play a 
significant role. Coordination with other Federal resources is 
necessary.
    Several charts have been prepared to illustrate the 
problem. The first graph shows the steady increase in the 
number of reports over a 10-year period. Last year, more than 
470,000 reports were made--a 300 percent increase over the base 
year of 1986.
    Almost half of the reports were about self-neglect. About 
one-quarter of them involved physical abuse. Other categories 
include caregiver neglect, financial exploitation, emotional 
and sexual abuse.
    It is very much a family issue. Adult children, spouses, 
and other family members are the most frequent abusers. Formal 
caregivers are also involved.
    Moving to the ``iceberg'' chart, it shows that most of the 
cases simply are not reported. For each case referred to adult 
protective services, there are four additional cases out there, 
hidden from view and hidden from those who can offer 
assistance. And this data presented here does not even include 
reports of abuse in nursing homes and other facilities. The 
Long-Term Care Ombudsman Program received over 18,000 
complaints of abuse, gross neglect, and exploitation in nursing 
and board-and-care facilities in 1999.
    This too is only part of the picture. Data from Medicare 
fraud agencies, State licensure and survey, law enforcement is 
missing.
    The elder abuse field is at a great disadvantage because 
there is no vehicle to collect and analyze information across 
agencies and funding streams. Further, in both domestic and 
institutional settings, it is likely that many incidents are 
hidden, not reported or identified at all. This lack of data 
makes it difficult to fairly allocate resources for elder 
abuse.
    In addition to the concerns about data, there is a long 
list of issues facing the field of elder abuse. They include 
public recognition that abuse occurs; adequate funding for 
adult protective services; the difficulty of establishing 
cross-agency multidisciplinary interventions; assuring that 
serious cases are indeed prosecuted, that all components of the 
law enforcement, justice, and health care systems are 
effectively trained to work with adult protective.
    More research is needed on causes and preventive 
strategies. We need access to experts in complex financial 
abuse cases.
    Finally, we need to identify and fill the gaps in services, 
the community-based interventions necessary to prevent and help 
victims.
    What can the committee do? First, the committee could 
develop a joint resolution and establish a ``National Elder 
Abuse Prevention Week.'' This would encourage Governors to 
follow suit and spearhead many collaborative State and local 
activities.
    Second, the committee could offer its support for restoring 
funding for the Social Service Block Grant, an important 
resource for adult protective services.
    Third, additional funding for The Older Americans Act, 
Title VII, the elder abuse prevention activities, could be used 
to develop more collaborative interventions at the State and 
local level.
    Finally, later this year in collaboration with AOA and the 
Department of Justice, the Center will convene a National 
Policy Summit on Elder Abuse. National experts will develop an 
action agenda, a road map for addressing many of the most 
serious problems. We hope the committee will play a part in 
this summit and in the implementation of its recommendations.
    On behalf of the partner organizations comprising the 
National Center on Elder Abuse, we congratulate you, Senator 
Breaux and Senator Craig, for having this hearing, and we look 
forward to working with you on the challenge of elder abuse.
    Thank you.
    The Chairman. Thank you very much, Ms. Aravanis. We 
appreciate your being with us.
    [The prepared statement of Ms. Aravanis follows:]

    [GRAPHIC] [TIFF OMITTED] T4685.017
    
    [GRAPHIC] [TIFF OMITTED] T4685.018
    
    [GRAPHIC] [TIFF OMITTED] T4685.019
    
    [GRAPHIC] [TIFF OMITTED] T4685.020
    
    [GRAPHIC] [TIFF OMITTED] T4685.021
    
    [GRAPHIC] [TIFF OMITTED] T4685.022
    
    [GRAPHIC] [TIFF OMITTED] T4685.023
    
    [GRAPHIC] [TIFF OMITTED] T4685.024
    
    [GRAPHIC] [TIFF OMITTED] T4685.025
    
    [GRAPHIC] [TIFF OMITTED] T4685.026
    
    [GRAPHIC] [TIFF OMITTED] T4685.027
    
    The Chairman. We would like to hear next from Joanne 
Hopper. Thank you very much for being with us.

           STATEMENT OF JOANNE HOPPER, FRUITLAND, ID

    Ms. Hopper. Thank you for having me.
    My statement is on power-of-attorney abuse and caregiver 
abuse, two issues.
    I had a massive heart attack and realized that I was going 
to have to have power-of-attorney because I was incoherent. I 
selected my son, who had always been an excellent kid, 
trustworthy and so on. I thought everything was fine, and all 
of a sudden, they asked if they could move into my home.
    They built an addition on, and before it was finished, they 
left it, because they could not get along with the builder. 
However, they had used my signature for the loan because he had 
power-of-attorney. They also had chalked up a lot of bills. 
They had somebody come in and get me up in the morning and put 
me to bed at night. I wondered how they were paying for it--
well, I was paying for it.
    They mortgaged a home I had in town. I just could not 
figure out how somebody could go into a bank and sign my name 
and walk out with $34,000 and not be accountable.
    Anyway, they have completely and totally wiped me out 
financially. If I have to go to the grocery store to buy 
groceries, there is not a cent for me to do that. I have been 
eating Meals-on-Wheels.
    It has been turned over to the prosecuting attorney, and so 
far it is just being considered a misdemeanor. I cannot 
understand. I am yelling, but nobody is hearing me, so I am 
going to yell some more.
    Then I had caregiver abuse. I had to get a caregiver 
because the kids moved out. One day, I had to discuss a 
situation that was kind of against her grain, and she was very 
mad, got me up from a nap and sat me in this scooter that I am 
sitting on. She used a belt around my waist to transfer me from 
the bed or to the scooter or wherever, and that got caught on 
the armrest, and I was over like this--and I have an internal 
pump, because I have MS--it was caught, and my feet were all 
under, and she just flat up and left me that way.
    I waited, and waited, and waited, and she did not come 
back. I carry a phone with me, and it was really hard--like an 
hour--for me to get the phone. Finally, I got it, called the 
operator--because my hands are curved, it is hard to dial--and 
called a friend to come and get me. She did, and we called 
adult protection--it just happened that I knew of adult 
protection through an attorney that I had; otherwise I would 
not have known about adult protection, and I think that that 
should be advertised--to see if I could get a new caregiver.
    They could not get me a new caregiver, so a friend of mine 
is still helping me every day, and if things do not change, I 
will probably have to go to a nursing home in a month or two. 
Hopefully, things will change, but we just do not know.
    I do not want to be a ward of the State. I had never 
planned on being a ward of the State, ever. I had enough money 
to last forever, but I guess mom's money was not too bad after 
all. It is really sad.
    On power-of-attorney, I think there should be more than one 
person signing when that money needs to be used for whatever 
the person needs.
    On the caregiver issue, really, that is just a hard 
situation. I do not know what to do. But you guys are smart.
    The Chairman. Ms. Hopper, thank you so much. The committee 
really appreciates your coming, and we thank Senator Craig for 
making the arrangements for you to be with us and tell your 
story. It is a tragic story, and we apologize that it happened 
to you, but I think that by your telling it, it helps us look 
for solutions so that it does not ever happen again.
    [The prepared statement of Ms. Hopper follows:]

    [GRAPHIC] [TIFF OMITTED] T4685.028
    
    [GRAPHIC] [TIFF OMITTED] T4685.029
    
    [GRAPHIC] [TIFF OMITTED] T4685.030
    
    The Chairman. We have a vote that has just started, but I 
think we can hear from Dr. Laura Mosqueda. So if you would like 
to go ahead and give your statement now, Dr. Mosqueda, we will 
hear it.

   STATEMENT OF DR. LAURA MOSQUEDA, DIRECTOR OF GERIATRICS, 
              UNIVERSITY OF CALIFORNIA, IRVINE, CA

    Dr. Mosqueda. Good morning, Senator Breaux, Senator Craig. 
Thank you for inviting me. I am very grateful for the 
invitation.
    My name is Laura Mosqueda. I am a family physician and 
geriatrician at the University of California, Irvine, UCI, 
where I am the Director of Geriatrics and an associate 
professor of family medicine.
    While I have one foot in academics, my other foot is 
planted firmly in the trenches, which allows me to see that we 
have great needs in the areas of research and education, but we 
have very urgent needs in the area of care for individuals who 
are affected by abuse.
    I am the principal investigator of a project funded by the 
Archstone Foundation, where we have formed a medical response 
team for our local county, Orange County in California, for 
elder abuse.
    Our team responds to requests from Adult Protective 
Services, the district attorney's office, and law enforcement 
agencies to help them look at medical aspects of elder abuse. 
At this point, we have been involved in over 100 cases, and I 
have done many dozens of house calls with APS workers, looking 
at possible abuse cases.
    We are about halfway through this 3-year project right now, 
and there are a few points that I would like to share that our 
team is learning as we go along.
    One is that APS workers are often doing a very heroic job 
at low pay for the degree of training they have and the work 
they are doing, and they have no medical backup whatsoever on a 
regular basis.
    We have learned that geriatricians and psychologists or 
psychiatrists can and should be integral members of an elder 
abuse multidisciplinary team.
    We have learned that police officers and detectives are 
often frustrated in dealing with the elderly. They have 
received little training; they do not know what to do when they 
are trying to interview a person who may be a victim and who 
suffers from, say, dementia or severe depression, or somebody 
who has trouble with hearing or vision, leading to a 
frustrating experience for all involved.
    We have learned that physicians are terrible at detecting, 
documenting, and reporting elder abuse.
    I have also learned that our system of response to elder 
abuse is fragmented and sporadic and truly inadequate. I think 
that in our level of understanding of elder abuse, we are 
probably 20 years behind that of child abuse. We know little 
about prevalence and incidence, risk factors, markers. As one 
of the other Senators mentioned earlier, how do we know when we 
can distinguish a bruise that has been caused by an accident 
from something that was inflicted? The same goes for issues 
like malnutrition, pressure sores; so many of the diseases that 
are common in the elderly can either mimic or mask markers of 
elderly abuse. And we know little about the consequences of 
elder abuse.
    We have a great opportunity to learn from our colleagues in 
child abuse and the domestic violence arenas to understand what 
models have been successful so that we do not have to reinvent 
the wheel. We can take those models and see how they can be 
modified and applied to elder abuse.
    I am sure that we will find that the causes of elder abuse 
are just as complicated and multifaceted as the solutions will 
be.
    There are some agencies and organizations that have begun 
to take action in the area of elder abuse. The National 
Institute on Aging recently commissioned a panel from the 
National Academies to help set a research agenda in the area of 
elder abuse. The Department of Justice has sponsored a forensic 
roundtable on this issue. The American Geriatric Society of 
which I am a member has now incorporated elder abuse into its 
core lecture series, and there is the beginning of an interest 
group within the organization.
    But as you know, there are not enough geriatricians to go 
around in the country, and there is even a smaller subset 
interested in elder abuse.
    As recommendations come forth from these different panels, 
agencies, and organizations, there will need to be new funding 
to implement the recommendations. I think Congress should make 
every effort to understand the financial cost of the problem as 
it currently stands--how much did it cost in the examples that 
we have heard about to have to go and look at nursing home 
care? How much is this costing Medicare and Medicaid when we 
are not catching it at an earlier phase or preventing abuse 
from happening to begin with?
    I think your timing for holding these hearings is 
excellent. You can capitalize on a growing interest across the 
country. It is amazing to me that we see a few pilot projects 
popping up here and there across the country, spearheaded by a 
variety of professionals, spearheaded by APS supervisors, 
police officers, prosecutors like Mr. Greenwood, health care 
providers--and all of us really have one common motivation. We 
know that elders are being victimized, and we know that our 
current system is failing them.
    I very much appreciate your insight and courage in holding 
these hearings. I think it is important for your leadership to 
bring this topic to the attention of Congress and to the 
attention of our Nation as you have done with other important 
issues for seniors. We need your leadership to develop a 
coordinated, comprehensive legislative approach and funding 
that support the research, education, and service needs.
    Thank you.
    The Chairman. Thank you very much, Dr. Mosqueda.
    [The prepared statement of Dr. Mosqueda follows:]

    [GRAPHIC] [TIFF OMITTED] T4685.031
    
    [GRAPHIC] [TIFF OMITTED] T4685.032
    
    [GRAPHIC] [TIFF OMITTED] T4685.033
    
    [GRAPHIC] [TIFF OMITTED] T4685.034
    
    [GRAPHIC] [TIFF OMITTED] T4685.035
    
    [GRAPHIC] [TIFF OMITTED] T4685.036
    
    [GRAPHIC] [TIFF OMITTED] T4685.037
    
    The Chairman. We have two recorded votes going on now on 
the Senate floor, so the committee will take a short recess, 
probably 10 minutes or so, and then come back to complete the 
testimony of the panel.
    The committee will stand in recess.
    [Recess.]
    Senator Craig [presiding.] Thank you all very much for your 
patience. The committee will reconvene.
    Chairman Breaux, because of the length of the vote, had to 
go on to another engagement, so in the bipartisan fashion in 
which we enjoy operating this committee, we will proceed.
    Let me turn now to Paul Greenwood, Deputy District Attorney 
and head of the Elderly Abuse Prosecution Unit in San Diego.
    Paul, welcome to the committee. Please proceed.

 STATEMENT OF PAUL R. GREENWOOD, DEPUTY DISTRICT ATTORNEY AND 
       HEAD, ELDER ABUSE PROSECUTION UNIT, SAN DIEGO, CA

    Mr. Greenwood. Thank you, and good morning, Senator Craig. 
It is a real honor to be invited to speak here.
    I have the privilege of heading the Elder Abuse Prosecution 
Unit in the San Diego District Attorney's Office since January 
1996. My boss, Paul Pfingst, probably was a visionary back 
then, when he felt that it was important to devote resources in 
this area.
    I have to confess, Senator, that when I was asked to do 
this job in January 1996, I had never heard of the term ``elder 
abuse'' and did not really know where to begin.
    But over the last 5\1/2\ years, being, like Dr. Laura 
Mosqueda here, basically on the front line of the trenches, my 
eyes have been opened, and if there is one thing that I would 
urge you to take back to your fellow Senators on this 
committee, it is that I believe this issue is one of the top 
three issues of crime in this country in the next 5 years, and 
it is only going to escalate and get worse.
    Just by way of example to show you that I am in the 
trenches, last Friday, I was prosecuting a case involving a 73-
year-old female in a residential facility. She has a mental age 
of 7, and she was sexually assaulted by a male employee of that 
facility who is currently on active felony probation for child 
molestation.
    That is the kind of case that we grapple with on a daily 
basis, Senator.
    In 1996, I prosecuted 17 felony cases. In 1997, it went up 
to about 37; in 1998, to 75; in 1999, to 97; and last year, we 
did 124 felony cases of either physical or financial elder 
abuse. This current year, we anticipate well over 200 felony 
case.
    Now, I am not proud of those statistics, and I believe that 
they are just the tip of the iceberg in the County of San 
Diego. But I think it demonstrates that much of the negativity 
that seems to surround the prosecution of elder abuse is a 
myth, and we have been able to demonstrate through the lessons 
learned from domestic violence and child abuse prosecutions 
that these cases can and should be investigated and should be 
prosecuted.
    You mentioned that in your home State of Idaho, there were 
2,100 cases last year. I would imagine that probably fewer than 
40 of those cases were prosecuted.
    So we have got to do a lot more, but I think it is at the 
grassroots-level, Senator, where this is going to happen, and I 
am grateful to you for bringing out Joanne from your home State 
just to give us all a sense of what is going on in the 
communities.
    There are four things that I can basically share from the 
years I have had prosecuting these cases as being lessons that 
we have learned.
    First, no agency knows every answer, and we have benefited 
from a multidisciplinary approach. We meet very regularly with 
Public Guardian, county mental health, adult protective 
services--and I cannot sing their praises enough; they are so 
underappreciated in this country, and people just do not know 
what they do. We have heard about child protective services, 
but people need to know more about what adult protective 
services does. We meet with them; we meet with paramedics, 
fire, police, sheriffs, and the medical community. This is the 
way to go, and I think prosecutors have a wonderful opportunity 
to be the catalyst in the local counties to actually bring 
these agencies together.
    Second, we have got to encourage every elected prosecutor 
who runs either a county prosecutor or a district attorney's 
office in municipalities in the major towns and cities of this 
country to designate at least one prosecutor in that office to 
be what we call a vertical prosecutor in the area of elder 
abuse.
    Sure, these cases are sometimes complex, are sometimes very 
difficult, but because we have trained prosecutors to know how 
to prosecute child abuse and domestic violence cases, it does 
not take much more to train prosecutors in the area of 
prosecuting elder abuse.
    Dealing with areas of competency--how do I prove a case 
where my victim is suffering from severe dementia or 
Alzheimer's or stage 5 Parkinson's--there are ways around it, 
and getting vertical units I believe is the way to go.
    Third, we need to develop a national training program for 
first responders of elder abuse. Every line of police and 
deputy sheriff, every paramedic and every firefighter in this 
country needs to have a course on elder abuse training and 
awareness. So many cases are going undetected, Senator, when 
paramedics and firefighters and even police officers go into a 
home and simply fail to recognize that if you leave an elderly 
widow in her bed with feces and urine and bedsores, that is a 
crime. They are trained not to look at it as a crime yet. We 
have got to teach our first responders about that issue.
    Fourth, we have got to look into the area of legislation. I 
agree with the Senator who was here earlier this morning in the 
sense that we do have sufficient laws pretty much, but there 
are some areas that we can develop.
    First, we can develop tougher laws on background checks for 
all employees and care providers for seniors in this country so 
that the case I just described will never happen again.
    Second, we need to extend the group of mandated reporters 
who are obliged by law to report these cases.
    And there is a side issue--I think we need to sit down with 
the financial institutions of this country and make them far 
more aware of their responsibilities to the elders and seniors 
of this country, because so many financial abuse cases start in 
the banks and in the credit unions and do not get reported as 
being suspicious, and they need to do that.
    If I may just take a couple more minutes of your time, I 
think we need to provide mandated training for all first 
responders. I think we also need to provide the judges of this 
country with courses in sensitivity to deal with cases 
involving elderly victims that come into their courtrooms.
    Finally on that issue, I think that we need protection for 
civil attorneys in this country to allow them the freedom to 
report cases of suspected elder abuse where their own clients 
are being abused. I know of many civil attorneys who wrestle 
with this problem of confidentiality, and they would like to 
call me and tell me that they feel they are violating the 
ethics of confidentiality even though they know that their own 
client is being unduly influenced and exploited by somebody 
else.
    So I am heartened and encouraged, Senator, by the fact that 
you have spearheaded this hearing today. I hope this is the 
start of something nationally. I must convince you, though, 
that this is grassroots-level. It starts in the counties of 
this country where local law enforcement and county prosecutors 
sit down and grapple with these issues, and it can spread from 
there.
    Thank you.
    Senator Craig. Paul, thank you very much. Your testimony is 
extremely valuable.
    [The prepared statement of Mr. Greenwood follows:]

    [GRAPHIC] [TIFF OMITTED] T4685.038
    
    [GRAPHIC] [TIFF OMITTED] T4685.039
    
    [GRAPHIC] [TIFF OMITTED] T4685.040
    
    [GRAPHIC] [TIFF OMITTED] T4685.041
    
    Senator Craig. Now let me turn to Ricker Hamilton, who is 
the Protective Program Administrator, Department of Human 
Services Bureau of Elder and Adult Services in Portland, ME.
    Please proceed.

STATEMENT OF RICKER HAMILTON, PROTECTIVE PROGRAM ADMINISTRATOR, 
 DEPARTMENT OF HEALTH AND HUMAN SERVICES, BUREAU OF ELDER AND 
    ADULT SERVICES, PORTLAND, ME; ON BEHALF OF THE NATIONAL 
    ASSOCIATION OF ADULT PROTECTIVE SERVICES ADMINISTRATORS

    Mr. Hamilton. Thank you. Good morning.
    It is an honor to be speaking with you, and thank you for 
your invitation, Senator Craig. I would like to submit my 
written testimony for the record.
    Senator Craig. It will be made a part of the record. Thank 
you.
    Mr. Hamilton. I am a board member of the National 
Association of Adult Protective Services Administrators, or 
NAAPSA, as we are known. As a volunteer, nonprofit 
organization, our membership consists of senior administrator 
of State Adult Protective Services.
    APS are those services provided to elderly and disabled 
adults who are in danger of abuse, neglect, or exploitation and 
who are unable to protect themselves and have no one to assist 
them. Most of these victims are unable to ask for our help.
    Reports of elder abuse, neglect, and exploitation are 
increasing dramatically, but not the budget for Adult 
Protective Services. It is estimated that in the United States, 
2 million older persons and persons with disabilities are 
abused each year. Sixty percent of the abusers are family 
members who isolate and intimidate their victims.
    The American Academy of Family Physicians reports that ``We 
are losing our elders to an epidemic rarely talked about or 
even acknowledged; an epidemic that leaves some ashamed, some 
afraid, and too many dead.''
    With minimal resources, APS programs all over the country 
have struggled to develop quality services for our most 
vulnerable adult citizens. Although great strides have been 
made by APS, we cannot possibly meet the increasing demand and 
complexity of the needs facing our clients without Federal 
leadership and resources.
    I would like to also call your attention to the photos on 
the side of the room, which highlight some cases, but I would 
also like to review some cases investigated by APS.
    In Louisiana, a 75-year-old woman was found wandering in 
front of her home and admitted to a hospital. The emergency 
room physician found that she suffered from diabetes, moderate 
dementia, and was missing four of her toes. The woman had been 
living with her daughter in an extremely unsanitary house with 
37 dogs and 10 cats. It appeared that the dogs had chewed off 
the victim's toes.
    Louisiana State law allows for the prosecution of elder 
abuse without the testimony of the victim. However, the judge 
dismissed charges filed against the daughter when the district 
attorney said that the victim was ``too upset to testify.'' In 
Maine, an 88-year-old woman was financially exploited by her 
two nieces. After becoming her guardian and conservator, the 
nieces sold her home, her car, and everything else that was 
important to her. They divided the proceeds and continued to 
steal her monthly pension from out of State, utilizing an ATM.
    The Department of Human Services became her public guardian 
and removed the nieces as guardian and conservator. The local 
district attorney's office refused to prosecute but promised to 
do so if the public guardian received judgment against the 
nieces from probate court.
    After a year of advocacy, a judgment was secured. The 
district attorney, however, refused to prosecute. The attorney 
general's office took the case, and both nieces were 
prosecuted. One niece received a 6-month jail sentence. 
Restitution is part of their probation.
    In Nebraska, Adult Protective Services received a report of 
a 53-year-old woman with developmental disabilities who had 
been physically and verbally abused by her brother. A witness 
saw the victim's brother yell at her, slap her across the face, 
and drive away, leaving her lying in a fetal position on the 
ground. The APS investigation found that she had been 
physically abused by her brother for several years. The victim 
thought that if she told anyone, she would have no place to 
live. She had also been financially exploited by the brother as 
he was the payee for her Social Security checks; he had used 
the money to support his drinking habit.
    The person who witnessed the abusive action would be 
willing to testify, but the county attorney refused to 
prosecute because the victim does not make a reliable historian 
and would not make a good witness.
    The very limited funds available through The Older 
Americans Act, $4.7 million, are used primarily for elder abuse 
prevention and education. In other words, Older American Act 
funds are not used to support APS services in the States. Nor 
does this program address the needs of thousands of younger 
disabled persons, those under age 60, who are also victims of 
abuse, neglect, and exploitation.
    The Social Services Block Grant is the only source of 
Federal funding that specifically provides funds for the 
delivery of adult protective services. SSBG has been reduced 
over the past few years from $2.8 billion to $1.7 billion, more 
than a $1 billion cut in these critical funds. And I understand 
that S. 501 is aimed to restore SSBG funds to $2.38 billion.
    Last year, the U.S. Department of Health and Human Services 
reported expenditures of $4 billion to serve abused children. 
The Violence Against Women Act received approximately $200 
million. Of the Federal funding available for victims of abuse, 
93.3 percent goes to child abuse, 6.7 percent to domestic 
violence, and only .08 percent to elder abuse.
    Child protective services, domestic violence agencies and 
related services need this level of commitment, but the 
contrast with funding available for APS is indeed stark and in 
fact troubling.
    NAAPSA has made a number of recommendations, including: 
restore SSBG funds to $2.38 billion; earmark SSBG funds for 
protective services, including adult protective services; 
develop consistent definitions of abuse, neglect, and 
exploitation; provide seed money for an automated data 
collection system to develop national statistics, similar to 
the seed money provided to child protective services; develop 
model enabling legislation for APS to combat the abuse of our 
elderly and persons with disabilities--there currently exists 
tremendous inconsistency among States, resulting in unequal 
protection under the law; provide funding for research efforts; 
encourage model programs and community partnerships; and 
finally, quantify the link between financial exploitation and 
the resulting high costs to public programs like Medicaid. 
Sadly, we all know the personal devastation.
    In closing, our current generation of older victims has 
raised their families, made numerous sacrifices, endured 
hardship, and have done so much for America. Now too many of 
them are being abused. They need our help, they deserve your 
attention, and they have earned the right to be safe in their 
older years. The true measure of our society will be how we 
treat those who have spent their lives doing for others.
    Thank you.
    [The prepared statement of Mr. Hamilton follows:]

    [GRAPHIC] [TIFF OMITTED] T4685.042
    
    [GRAPHIC] [TIFF OMITTED] T4685.043
    
    [GRAPHIC] [TIFF OMITTED] T4685.044
    
    [GRAPHIC] [TIFF OMITTED] T4685.045
    
    [GRAPHIC] [TIFF OMITTED] T4685.046
    
    [GRAPHIC] [TIFF OMITTED] T4685.047
    
    [GRAPHIC] [TIFF OMITTED] T4685.048
    
    [GRAPHIC] [TIFF OMITTED] T4685.049
    
    [GRAPHIC] [TIFF OMITTED] T4685.050
    
    [GRAPHIC] [TIFF OMITTED] T4685.051
    
    [GRAPHIC] [TIFF OMITTED] T4685.052
    
    [GRAPHIC] [TIFF OMITTED] T4685.053
    
    [GRAPHIC] [TIFF OMITTED] T4685.054
    
    [GRAPHIC] [TIFF OMITTED] T4685.055
    
    Senator Craig. Ricker, thank you. Both you and Sara 
mentioned the importance of the block grant and the flow of 
money out of that to these kinds of protective services and 
educational programs, and our effort to restore that is 
underway. But it is my understanding that only 31 States use 
SSBG funding for elderly abuse prevention and adult protection 
efforts, and it seems to me that maybe we ought to place focus 
at the local level of encouraging States to review elder 
protection as a funding priority.
    Either of you might respond to this if you would. If States 
are not using SSBG funding to assist elder abuse prevention, 
why not? Why aren't they in some instances?
    Ms. Aravanis. Thank you, Senator, for that question.
    I know that many States come through with their own State 
and local resources in order to fund adult protective services 
as well.
    I think the other part of that dilemma is that it is a 
limited pot; there are many draws against that pot, and there 
are many priorities that are kind of bumping elder abuse and 
adult protective services out of the way.
    It is always a challenge to try to spread that limited 
resource across all the needs, and it is very difficult for us 
in the elder abuse arena to say take money from child 
protective and give it to adult protective. It is a very 
difficult thing to do. But it is just clear that there are 
inequities in the extent to which this resource is available 
for elder abuse.
    Senator Craig. Any additional comments on that?
    Mr. Hamilton. I think it is crucial that elder abuse 
victims and younger persons with disabilities who are being 
abused, neglected, or exploited be identified as a priority 
group. Whether we are talking about domestic violence funding, 
where the shelter system is set up for younger women and 
children, APS programs get older victims of domestic violence. 
We need to identify that older victims deserve the same 
attention and deserve the same response from our State, local 
and Federal level that child abuse victims, younger women and 
children in domestic violence, and in fact in some cases, elder 
abuse victims have less as far as resources, less as far as 
laws and regulations, than some of the humane laws to protect 
our animals.
    Senator Craig. Thank you.
    Joanne, a very special thanks to you for being here today 
and sharing with us your tragic experience--and it is certainly 
that. I hope that the prosecution of it proceeds to your 
benefit.
    Can you tell us about adult protective services' response 
to the allegations that you were being abused and exploited?
    Ms. Hopper. When I called them, they came immediately. They 
also called the police, and there was a police report made. It 
has been handed over to the prosecuting attorney, but so far, 
nothing has been done. I am sure it is going to be a 
misdemeanor.
    Senator Craig. And you think it will be a misdemeanor in 
spite of the fact that it nearly wiped out your finances?
    Ms. Hopper. Completely, totally--like $200,000.
    Senator Craig. Maybe it was you, Ricker, or possibly you, 
Paul, who mentioned that at the bank level, there needs to be 
greater accounting and relationship understood between the bank 
and the person bearing the power of attorney and a cross-
referencing. Was it you, Paul, who mentioned that?
    Mr. Greenwood. Yes. I feel very strongly about that.
    Senator Craig. And here, we have an example of that, it 
appears, where the son was given power of attorney, and no 
questions were asked until the resources were depleted.
    Mr. Greenwood. That is correct. And that is exactly what I 
am finding, Senator. In fact, I prosecuted a case 4 months ago 
where a 24-year-old  limousine  driver  picked up  an elderly  
woman with severe dementia from her nursing home and got her to 
sign a certificate of deposit surrender form for $93,000. He 
wheeled her into her bank, he presented it to the bank teller, 
and the bank gave a cashier's check for $92,000 to this 
stranger without asking questions.
    Senator, in a neighboring State of yours, Oregon, they have 
done a phenomenal job of a bank reporting project. I would love 
to see funds from the Department of Justice to be transferred 
possibly to the Office of the Victims of Crime or somewhere, so 
that we can replicate this great Oregon project all over the 
country, because if they had had somebody trained in that bank, 
Joanne's money might still be safe today. So I think you have 
hit upon a very, very important point.
    Senator Craig. Thank you.
    Laura, in your view, how can national efforts best assist 
in promoting the inclusion of the medical profession in the 
assessment, investigation, and prosecution of elder crime?
    Dr. Mosqueda. Well, physicians are scientists, so we always 
want to know what the data show. Unfortunately, there have been 
very few well-done scientific studies, and it has been a 
struggle as we have been creating training programs for health 
care providers to try to find primary data to explain the 
issues and explain what we ought to do about the issues to our 
fellow health care providers.
    So I think we need to have a better understanding of the 
issue to begin with at a fundamental level. And then, I think 
there needs to be the promotion of the need to be aware of the 
problem and what to do about the problem.
    For health care professionals, just as an example, we 
recently put on a 1\1/2\ day training course for geriatricians 
on the topic of elder abuse, funded by the California Office of 
Criminal Justice Planning, through a program called California 
Medical Training Centers. The purpose of this is to train 
physicians to be more helpful to folks like Mr. Greenwood who 
want to then prosecute these cases. We sent a mailing to over 
600 geriatricians in California, and we put it on for free, we 
offered continuing medical education credits, and we had 16 
practicing physicians come.
    So it is a struggle to make health care providers aware of 
the problem; and then we have the next obligation, to make them 
aware and provide the training. But it is a struggle.
    Senator Craig. It appears to me today, or at least, we are 
told, and all reference to it seems to be accurate, that with 
physicians who treat a child who appears to be abused, there 
tends to now be an immediate report, or questions are asked 
immediately, and authorities are brought in to examine. That 
has come over a period of time of causing general awareness, 
but also clearly understanding that that physician has a 
responsibility to report.
    That appears not to be the case with the elderly. How do we 
cause physicians to be as sensitive--through educational 
programs, or does there need to be more specificity in the law 
as to a responsibility and a requirement to report?
    Dr. Mosqueda. Well, of course, the laws are different in 
different States, but in most States, there is a mandated 
reporting law for elder abuse, and physicians are always 
mandated reporters.
    As far as I know, there have not been any prosecutions of 
physicians for not reporting; I do not know if there will need 
to be carrots and sticks. But I think that at a more basic 
level, physicians are just missing it. We do not have any data 
to help us understand how to distinguish a bruise or a pressure 
sore or other signs of injury--a fracture, for example--well, 
the person has osteoporosis, and they fracture easily.
    So we need to train physicians to start thinking about how 
to ask questions and what questions to ask about this. So from 
my perspective, I think it lies in research and education and 
making it easy for physicians to report--creating forensic 
centers, for example, as they have done in child abuse, so that 
a physician who is in a busy practice does not feel like, hey, 
if I identify this case of abuse, that is going to be my whole 
afternoon--if they could have an easy way to turn it over to 
somebody who could help them with documentation and 
investigation.
    Senator Craig. I apologize that I am running out of time 
because there are several other things that I would like to ask 
you. What we may ask of you is that we be able to submit some 
questions in writing for your response.
    But Paul, offer me some advice from your experience. You 
talk about ``vertical units.'' What are your best 
recommendations--you have already given some--for other States 
and counties that may want to start their own multiple 
disciplinary teams and other prosecuting attorneys' offices 
that may want to establish an internal elder crime unit.
    Mr. Greenwood. I would try to send out the message to all 
elected prosecutors that one of their primary responsibilities 
right now is to make sure that they are taking care of their 
elder population and to get the backing of their local boards 
of supervisors in their counties to be on board with this, and 
to assign a prosecutor who believes in the work, is dedicated 
to it, and basically fulfills a role outside the courtroom as 
well as inside the courtroom, which I think is for adult 
protective services to begin outreach, education and training.
    I do believe that local prosecutors have a unique 
responsibility and opportunity in this country to be able to 
fulfill that, but it takes the vision of an elected prosecutor. 
Five and a half years ago, it was my boss, Paul Pfingst, who 
saw the need, and he allowed me the freedom to develop it in 
the way that I have seen fit. But you need more Paul Pfingsts 
out there who see that we have got to have this as a primary 
resource in every office.
    When I go around the country, Senator, and I talk to 
elected prosecutors, their first response is, ``Oh, we do not 
have the money in the budget.'' And then I follow up with a 
question: ``Do you prosecute misdemeanor DUIs?'' And they say, 
``Of course, we do.'' And I ask, ``What would happen if, 
tomorrow, you went on television and said we cannot prosecute 
misdemeanor DUIs because of lack of funding?'' And they say, 
``We would have Mothers Against Drunk Driving at our door.'' I 
say absolutely--but equally, as my colleague here so succinctly 
put it, we owe seniors because of what they have done for us. 
We owe them our primary duty to take care of them. And I think 
elected prosecutors in this country need to capture that vision 
today.
    Senator Craig. I wish we could continue this discussion, 
but I cannot, and I apologize. But certainly on behalf of 
Chairman Breaux and myself and the members of the committee, we 
thank all of you for your time, but most important, we thank 
you for your commitment and your willingness to become 
advocates and speak out. That is clearly a part of the whole 
process of educating and understanding.
    I am committed, and I think the chairman is, to working 
with the Department of Justice to see if we cannot cause a bit 
of a different allocation of resources--and my guess is that we 
can--that will allow us to begin to reach out to States and to 
counties, both in the informational and educational 
perspectives, but also the possibility of actually gaining some 
resources to train and employ people for the purpose of 
advocacy and/or obviously the kind of training that you have 
all spoken to.
    Thank you all very, very much for coming today. We do 
appreciate it.
    The committee will stand adjourned.
    [Whereupon, at 11:26 a.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4685.056

[GRAPHIC] [TIFF OMITTED] T4685.057

[GRAPHIC] [TIFF OMITTED] T4685.058

[GRAPHIC] [TIFF OMITTED] T4685.059

[GRAPHIC] [TIFF OMITTED] T4685.060

[GRAPHIC] [TIFF OMITTED] T4685.061

[GRAPHIC] [TIFF OMITTED] T4685.062

[GRAPHIC] [TIFF OMITTED] T4685.063

[GRAPHIC] [TIFF OMITTED] T4685.064

[GRAPHIC] [TIFF OMITTED] T4685.065

[GRAPHIC] [TIFF OMITTED] T4685.066

[GRAPHIC] [TIFF OMITTED] T4685.067

[GRAPHIC] [TIFF OMITTED] T4685.068

[GRAPHIC] [TIFF OMITTED] T4685.069

[GRAPHIC] [TIFF OMITTED] T4685.070

[GRAPHIC] [TIFF OMITTED] T4685.071

[GRAPHIC] [TIFF OMITTED] T4685.072

[GRAPHIC] [TIFF OMITTED] T4685.073

[GRAPHIC] [TIFF OMITTED] T4685.074


</pre></body></html>
